                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 112050030                                                                  Page 1 of 1



        We received a duplicate funding allegation from another federal agency. 1 Specifically, the
        agency alleged that a Pl2 of one of its awards maybe conducting the same research for a second
        entity using an NSF award. 3 The other agency requested that we compare its award and the NSF
        award to determine whether there was duplicate funding for essentially the same research. We
        determined the NSF award did not involve duplicate research, and there was no indication that
        NSF funds were misused.

        Accordingly, this investigation is closed.




NSF OJG Form 2 (11 /02)
